ES, IG-99-047, Safety Considerations at GSFC
SAFETY CONSIDERATIONS AT
GODDARD SPACE FLIGHT CENTER
IG-99-047
Executive Summary
Background
In an April 1998 Senior Management Council meeting, the NASA Administrator
stated that safety is the Agency's highest priority.  The Administrator's
mandate renewed the Agency's emphasis on safety and culminated in the Agency
Safety Initiative (ASI.)  The basic goal of the ASI is to make NASA the
safest organization in the nation with zero tolerance for mishaps.  The ASI
strongly encourages each NASA Center to be certified under the Department of
Labor's Occupational Safety and Health Administration (OSHA) Voluntary
Protection Program (VPP), which is designed to promote strong safety and
health management.
Objectives
The overall objective of the audit was to evaluate management of NASA's
safety program.  Specifically, we assessed:
the effectiveness of the various safety-program reviews,
measures taken to correct deficiencies identified in safety reviews and mishaps, and
procedures for ensuring safety under NASA contracts.
During the audit, we identified issues that could affect the safety of
Goddard Space Flight Center (Goddard) employees.  We believe that these
issues require immediate management attention.  Additional details on the
scope and methodology are in Appendix A.
Results of Audit
Goddard is taking action to improve safety.  The Center is making plans to
implement the requirements of the ASI and to achieve VPP certification from
OSHA by January 2001.  The Center has also restructured the Goddard Safety,
Health, and Environmental Council (SHEC), making the Goddard Center Director
chair to ensure management's commitment to safety.  However, we identified
issues that could affect Goddard's overall safety and preparation for VPP
certification.
Goddard's various safety offices are not consolidated into one organization with a full-time director.
The mishap reporting process does not ensure that the causes of all mishaps are properly addressed and that all mishaps and related information are adequately reported.
Contractor's safety records were not evaluated prior to contract award, as required by the NASA Safety Manual.
We plan to evaluate these areas in greater detail from a NASA-wide
standpoint in future audits.  However, Goddard management should consider
these issues now as it works to improve Goddard safety and prepare for VPP
certification.
Recommendations
We recommend that the Director, Goddard Space Flight Center:
Evaluate the effectiveness of the Ongoing Safety Initiatives.
Ensure that all mishaps, (including close calls) are reported accurately and in a timely manner and that the root causes are identified.
Establish procedures for reviewing contractor safety records before contract award.
Management's Response
Management concurred with each recommendation.  The complete text of the response is in
Appendix H.  we consider managemetn's comments responsive.